Highlights
Table of Contents




                    Dormant
                    Advance
                    Deposit
                    Permit
Findings




                    Accounts
Recommendation




                    Management
                    Advisory Report
                    Report Number
                    FT-MA-15-001

                    October 1, 2014
Appendices




                                      Print
Highlights
Table of Contents




                    Highlights                                Background                                                           amount to customers; $15.6 million of customers’ unclaimed
                                                                                                                                   dormant account balances was considered income to the
                                                              The U.S. Postal Service maintains advance deposit accounts
                                                                                                                                   Postal Service during that same timeframe.
                                                              of customers to pay for business mailings in the PostalOne!
                                                              system. This system provides an automated, streamlined
                                                              alternative to the existing, manual business mail acceptance         Our objective was to determine whether procedures for
Findings




                                                              process. These accounts contain deposits for future permit           refunding dormant advance deposit permit accounts to
                      Opportunities exist to enhance          imprint, business reply, periodicals, and postage due mailings.      customers were effective and consistent with best practices.

                            the process for locating          The Postal Service cancels these accounts when no mailing            What The OIG Found
                           customers and archiving            transactions have occurred and customers do not pay the
                                                              $220 annual fee for 2 years. Postal Service policy requires          The Postal Service’s procedures for refunding dormant
                    account information. Specifically,        management to notify customers that their account will be            advance deposit permit accounts to customers were effective
                                                              canceled and instructs them to request a refund for any              and consistent with best practices to the extent allowed by
Recommendation




                         providing customers more             remaining account balance.                                           law. However, opportunities exist to enhance the process for
                       visibility to obtain refunds on                                                                             locating customers and archiving account information. These
                                                              Once canceled, and no request for refund is received from the        opportunities will increase visibility, provide customers a better
                            their dormant accounts.           customer, the account is closed and becomes dormant.                 opportunity to obtain refunds on their deposits, and ensure
                                                                                                                                   continued effectiveness and efficiency in the refund process.
                                                              Business mail customers may claim refunds of unused account
                                                              balances, even after the account becomes dormant. Customers          Specifically, prior to cancellation, the Postal Service notifies
                                                              retain visibility to dormant account information until the account
                                                                                                                                   customers that their account will be closed and instructs them to
                                                              is deleted and archived. The Postal Service refunds fees or
                                                                                                                                   submit a request for refund for any remaining account balance.
                                                              advanced deposits within 10 business days from the receipt of
                                                              the customer’s request.                                              The policy does not require further, ongoing attempts to contact
Appendices




                                                                                                                                   customers prior to closure. While state and federal agencies
                                                              The Postal Service refunded $34.3 million to customers from          advertise and transfer funds to make them more accessible,
                                                              October 1, 2008, through June 30, 2014. During fiscal years          the Postal Service is prohibited by law from performing these
                                                              2012 and 2013, the Postal Service refunded $9.2 million of that      activities.
                    Dormant Advance Deposit Permit Accounts
                    Report Number FT-MA-15-001
                                                                                                                                                            Print                                       1
Highlights
Table of Contents




                                                              Also, canceled accounts are deleted from the PostalOne!           What The OIG Recommended
                                                              system and archived 1 year after the month of cancellation.
                                                                                                                                We recommended management conduct periodic attempts to
                                                              As a result, customers lose visibility of their dormant account
                                                                                                                                locate customers of inactive and dormant accounts and extend
                                                              information. Also, once archived, refunds from dormant
                                                                                                                                retention of account information within the PostalOne! system.
                                                              accounts become more difficult to process.
Findings




                                                              We projected the Postal Service will issue an average of
                                                              $3.4 million annually in refunds from dormant accounts for the
                                                              period July 1, 2014, through June 30, 2016.
Recommendation
Appendices




                    Dormant Advance Deposit Permit Accounts
                    Report Number FT-MA-15-001
                                                                                                                                                       Print                                     2
Highlights
                    Transmittal Letter


                                                              October 1, 2014		
Table of Contents




                                                              MEMORANDUM FOR:	           MAURA A. MCNERNEY
                                                                                         VICE PRESIDENT, CONTROLLER

                                                                                         PRITHA N. MEHRA
                                                                                         VICE PRESIDENT, MAIL ENTRY AND PAYMENT
                                                                                          TECHNOLOGY




                                                              FROM: 			                  John E. Cihota
                                                                                         Deputy Assistant Inspector General
Findings




                                                                                          for Finance and Supply Management

                                                              SUBJECT: 	                 Management Advisory Report – Dormant Advance Deposit
                                                                                         Permit Accounts (Report Number FT-MA-15-001)

                                                              This report presents the results of our review of the Dormant Advance Deposit Permit
                                                              Accounts (Project Number 14BD002FT000).
Recommendation




                                                              We appreciate the cooperation and courtesies provided by your staff. If you have any
                                                              questions or need additional information, please contact Lorie Nelson, director, Finance,
                                                              or me at 703-248-2100.

                                                              Attachment

                                                              cc:	 Corporate Audit and Response Management
Appendices




                    Dormant Advance Deposit Permit Accounts
                    Report Number FT-MA-15-001
                                                                                                                                    Print                 3
Highlights
                    Table of Contents                         Cover
                                                              Highlights.......................................................................................................1
                                                               Background.................................................................................................1
                                                               What The OIG Found..................................................................................1
                                                               What The OIG Recommended...................................................................2
                                                              Transmittal Letter...........................................................................................3
                                                              Findings.........................................................................................................5
Table of Contents




                                                               Introduction.................................................................................................5
                                                               Conclusion..................................................................................................6
                                                               Locating and Contacting Customers...........................................................7
                                                               Archived Account Information.....................................................................8
                                                              Recommendation..........................................................................................9
                                                               Management’s Comments..........................................................................9
                                                               Evaluation of Management’s Comments....................................................9
                                                              Appendices..................................................................................................10
                                                               Appendix A: Additional Information........................................................... 11
Findings




                                                                 Background ........................................................................................... 11
                                                                 Objective, Scope, and Methodology....................................................... 11
                                                                 Prior Audit Coverage..............................................................................12
                                                               Appendix B: Management’s Comments....................................................13
                                                              Contact Information.....................................................................................15
Recommendation
Appendices




                    Dormant Advance Deposit Permit Accounts
                    Report Number FT-MA-15-001
                                                                                                                                                        Print                      4
Highlights
                    Findings                                  Introduction
                                                              This report presents the results of our self-initiated review of the Dormant Advance Deposit Permit Accounts (Project Number
                                                              14BD002FT000). We conducted this review to address a concern over dormant advanced deposit permit accounts.1 Our objective
                                                              was to determine whether the U.S. Postal Service’s procedures for refunding dormant advance deposit permit accounts to
                                                              customers were effective and consistent with best practices. See Appendix A for additional information about this review.

                      Postal Service policy does not          Business mail customers are required to deposit funds into a Postal Service maintained advanced deposit permit account to pay
                                                              for future services used by the mailer. The Postal Service has the responsibility to effectively manage these accounts by accurately
Table of Contents




                    require further, ongoing attempts         recording customer deposits and withdrawals when a mailing occurs. Additionally, management of these accounts includes closing
                                                              them for inactivity and refunding balances to customers.
                      to contact customers after the
                          cancellation letter is sent.        Advance deposit permit accounts are canceled through the PostalOne! system2 for inactivity when no mailing transactions
                                                              have occurred and customers do not pay annual fees of $2203 for 2 years. Postal Service policy requires management to notify
                      Also, customers lose visibility         customers that their account will be canceled and instructs them to request a refund for any remaining account balance. When
                                                              the notice is returned as undeliverable or a refund request is not received, the Postal Service does not require further, ongoing
                     to dormant funds once account            attempts to contact customers prior to closure. While state and federal agencies advertise and transfer funds to make them more
                                                              accessible, the Postal Service is prohibited by law from performing these activities.
                            information is archived.
                                                              Once canceled, and no request for refund is received from the customer, the account is closed and becomes dormant. Canceled
                                                              accounts are deleted from the PostalOne! system and archived 1 year after the month of cancellation.
Findings




                                                              Business mail customers may claim refunds of unused account balances, even after the account becomes dormant. Customers
                                                              retain visibility to dormant account information through the Business Customer Gateway4 until the account is deleted and archived.
                                                              However, once archived, customers lose visibility within the PostalOne! system to identify their dormant account information. The
                                                              Postal Service refunds fees or advanced deposits within 10 business days from the receipt of the customer’s request. According to
                                                              the Postal Service, it is difficult but not impossible to retrieve data after the account is archived, allowing customers to request
                                                              a refund at any time.
Recommendation




                                                              The Postal Service refunded $34.3 million to customers from October 1, 2008, through June 30, 2014. During fiscal years
                                                              (FY) 2012 and 2013, the Postal Service refunded $9.2 million of that amount to customers; $15.6 million of customers’ unclaimed
                                                              dormant account balances was considered income to the Postal Service.5 See figure 1.
Appendices




                                                              1	   Mailing Systems Technology, “Special Report – Has the USPS Been Holding on to Millions of Dollars of Mailers’ Money?” January-February 2014, by Adam Lewenberg.
                                                              2	   The PostalOne! system provides mailers with an efficient, cost-effective and seamless process from mail preparation to mail delivery.
                                                              3	   Postal Service Form 3621-A, Renewal Notice for Annual Fee(s), dated January 2014.
                                                              4	   Business Customer Gateway is a web portal for Postal Service business services. It allows mailers to access all their mailing accounts to monitor balances and fees for
                                                                   ease of mailing.
                                                              5	   We were not able to determine the total dollar value of refunds to customers of archived dormant accounts as they were comingled with other transactions.
                    Dormant Advance Deposit Permit Accounts
                    Report Number FT-MA-15-001
                                                                                                                                                                                      Print                                                  5
Highlights                                                    Figure 1. Analysis of Refunds and Unclaimed Funds



                                                                                           REFUNDS MADE TO
                                                                                      POSTAL SERVICE CUSTOMERS                                               HOVER HERE TO REVEAL
                                                                                        PREVIOUSLY CONSIDERED                                                  DOLLAR AMOUNTS
                     The Postal Service is prohibited
                                                                                       INCOME – OCTOBER 2008 TO
Table of Contents




                          by law from advertising to                                          JUNE 2014

                         the public and transferring
                     unclaimed funds to the State or                                                                  REFUNDS MADE TO
                                                                                                                        POSTAL SERVICE
                       U.S. Department of Treasury.                                                                 CUSTOMERS PREVIOUSLY
                                                                                                                     CONSIDERED INCOME –                          UNCLAIMED DORMANT
                                                                                                                       FY’s 2012 AND 2013                          ACCOUNT BALANCES
                                                                                                                                                                  CONSIDERED INCOME –
                                                                                                                                                                    FY’s 2012 AND 2013
Findings




                                                              Source: Postal Service data and EDW Accounting Data Mart (ADM).
Recommendation




                                                              Conclusion
                                                              The Postal Service’s procedures for refunding dormant advance deposit permit accounts to customers are effective and consistent
                                                              with best practices to the extent allowed by law. Specifically, it sends a letter to customers prior to cancellation and processes
                                                              refunds for an indefinite period of time. However, opportunities exist to enhance the process for locating customers and archiving
                                                              account information. These opportunities will increase visibility, provide customers a better opportunity to obtain refunds on their
                                                              deposits, and ensure continued effectiveness and efficiency in the refund process.

                                                              We reviewed best practices for managing unclaimed property at state and federal agencies.6 As shown in Table 1, we determined
                                                              these agencies also notify customers of unclaimed funds or property. Also, while state and federal agencies advertise and transfer
                                                              funds to make them more accessible, the Postal Service is prohibited by law from performing these activities.
Appendices




                                                              6	   We reviewed practices at 30 state agencies. We also reviewed 31 U.S.C. Section 1322, Payments of Unclaimed Trust Fund Amounts and Refund of Amounts Erroneously
                                                                   Deposited, for practices governing all federal agencies.
                    Dormant Advance Deposit Permit Accounts
                    Report Number FT-MA-15-001
                                                                                                                                                                               Print                                            6
Highlights                                                    Table 1: Best Practices for Unclaimed Funds

                                                              Best Practices                                  State Agencies                         Federal Agencies                          Postal Service
                                                                                                                                                                                               Yes, 60 days prior to
                                                              Notify Customers/Public of                      Effort varies by state agency.         Effort varies by federal agency.          cancellation of account, a letter
                                                              Unclaimed Funds.                                                                                                                 is issued to the customer.

                                                                                                              Yes, on individual and public          Yes, on individual and public
                                                              Advertise unclaimed funds.                                                                                                       Prohibited by law.7
                                                                                                              websites.                              websites.
Table of Contents




                                                              Transfer unclaimed funds.8                      Yes, to individual state offices.      Yes, to Department of Treasury. Prohibited by law.9


                                                              Unclaimed funds refunded                        Yes.                                   Yes.                                      Yes.
                                                              indefinitely.
                                                              Source: Individual state, Department of Treasury, and Postal Service websites.



                                                              The Postal Service refunded $34.3 million to customers from October 1, 2008, through June 30, 2014. Based on this data, we
                                                              projected the Postal Service will issue an average of $3,364,465 annually in refunds from dormant accounts for the period of
                                                              July 1, 2014, through June 30, 2016.
Findings




                                                              Locating and Contacting Customers
                                                              Sixty days prior to the month of cancellation, the Postal Service sends a letter to business mail customers advising them that due
                                                              to inactivity their account will be canceled. The letter includes the remaining account balance and states that the customer must
                                                              submit a request for refund to obtain it.10 Postal Service policy does not require further, ongoing attempts to contact customers
                                                              prior to closure. However, during our site visits to selected postal units,11 we noted that field personnel conducted internet searches
                                                              and sent emails to locate customers prior to closing accounts. Management confirmed that other sites followed these same
                                                              additional efforts as a goodwill gesture.
Recommendation
Appendices




                                                              7	    Codified at 39 U.S.C. §412.
                                                              8	    State entities transfer unclaimed funds to the individual state offices, and federal agencies transfer funds to the U.S. Department of Treasury.
                                                              9	    Codified at 39 U.S.C. §410(a).
                                                              10	   Handbook F-101, Field Accounting Procedures, Section 16-7-2, Non-Use Cancellation Notice, dated October 2013.
                                                              11	   We judgmentally selected the business mail entry unit (BMEU) and postal retail unit (PRU) in Eagan, MN, and the BMEU and PRU located within the
                                                                    St Louis, MO, Main Post Office.
                    Dormant Advance Deposit Permit Accounts
                    Report Number FT-MA-15-001
                                                                                                                                                                                    Print                                          7
Highlights                                                    Archived Account Information
                                                              Business mail customers may claim refunds of unused account balances, even after the account becomes dormant. However,
                                                              1 year after the month of cancellation, dormant account information is deleted from the PostalOne! system and archived. As a
                                                              result, customers lose visibility within PostalOne! to identify their dormant account information. Also, once archived, refunds from
                                                              dormant accounts become more difficult to process for the Postal Service. To process refunds from archived accounts,
                                                              Postal Service employees must submit a data retrieval request to management for approval. Once approved, it is submitted to the
                                                              Integrated Business Systems Solutions Center (IBSSC) in San Mateo, CA. The IBSSC retrieves account information and forwards
                                                              the refund request to the PRU to process. If the Postal Service retained account information within PostalOne! beyond 1 year,
Table of Contents




                                                              business mail customers would retain visibility to account balances for longer periods, and the Postal Service’s refund process
                                                              would be more effective and efficient.12
Findings
Recommendation
Appendices




                                                              12	 We did not obtain detailed cost information related to data retrieval from the IBSSC.
                    Dormant Advance Deposit Permit Accounts
                    Report Number FT-MA-15-001
                                                                                                                                                          Print                                  8
Highlights
                    Recommendation                            We recommend the vice president, Controller, in coordination with the vice president, Mail Entry and Payment Technology:

                                                              1.	 Develop procedures to enhance the refund process for dormant advance deposit permit accounts, to include:

                                                                 ■■ Periodic attempts to locate customers of inactive and dormant accounts.

                                                                 ■■ Retaining canceled account information within the PostalOne! system for more than 1 year.
                       We recommend management
                                                              Management’s Comments
Table of Contents




                       conduct periodic attempts to
                                                              Management disagreed with the findings, recommendation, and monetary impact, stating that the current processes for dormant
                    locate customers of inactive and
                                                              accounts refunds are reasonable, efficient, and effective. They stated the recommendation would unduly burden the Postal Service
                       dormant accounts and extend            with non-value added processes that would add additional costs and inefficiencies. They also reiterated our conclusion that the
                                                              current processes are both effective and consistent with best practices to the extent the law allows. Finally, they said the
                    retention of account information          Postal Service maintains an extensive level of customer support and a consumer friendly refund policy that allows customers to
                                                              claim a dormant account refund at any time after cancellation.
                       within the PostalOne! system.
                                                              See Appendix B for management’s comments, in their entirety.

                                                              Evaluation of Management’s Comments
Findings




                                                              Management’s comments are not responsive to the recommendation. While we acknowledge that the Postal Service may
                                                              incur some costs, we disagree that the recommended enhancements cause inefficiencies. We maintain that additional periodic
                                                              attempts to locate customers and longer retention of account information in the PostalOne! system would enhance the process.
                                                              These enhancements will provide greater visibility of dormant account information and more timely refunds resulting in greater
                                                              customer satisfaction. The intent of our recommendation was to provide management with opportunities to enhance the process to
                                                              achieve greater customer satisfaction and transparency. Since the processes are not material in relation to overall Postal Service
                                                              operations, we will not initiate formal audit resolution.
Recommendation




                                                              Regarding the monetary impact, we believe our recommendation would provide Postal Service customers with better transparency
                                                              of refunds available to them. As a result, had the recommendation been agreed to by the Postal Service and implemented, we
                                                              computed customers would have a better opportunity to obtain an average of $3.4 million annually from dormant accounts for the
                                                              period July 1, 2014, through June 30, 2016. We will report this in our Semiannual Report to Congress.
Appendices




                    Dormant Advance Deposit Permit Accounts
                    Report Number FT-MA-15-001
                                                                                                                                                       Print                                   9
Highlights
                    Appendices

                          Click on the appendix title         Appendix A: Additional Information...........................................................12
                                                               Background ...........................................................................................12
                           to the right to navigate to
                                                               Objective, Scope, and Methodology.......................................................12
                               the section content.            Prior Audit Coverage..............................................................................13
Table of Contents




                                                              Appendix B: Management’s Comments....................................................14
Findings
Recommendation
Appendices




                    Dormant Advance Deposit Permit Accounts
                    Report Number FT-MA-15-001
                                                                                                                                                 Print                    10
Highlights          Appendix A:                               Background
                    Additional Information                    The Postal Service maintains advance deposit permit accounts of customers to pay for business mailings in the PostalOne!
                                                              system. These accounts contain deposits for future permit imprint, periodicals, business reply, and postage due mailings
                                                              processed and maintained by BMEUs and PRUs. Additionally, the Postal Service refunds fees or advanced deposits within
                                                              10 business days from the receipt of the customer’s request.

                                                              The PostalOne! system automatically cancels advance deposit permit accounts for inactivity and when business mail customers
                                                              do not pay the annual fee of $220 for 2 years. The Postal Service sends a letter to customers for inactive accounts 60 days prior
Table of Contents




                                                              to the month of cancellation. According to the letter, the customer must submit a request for refund for the remaining account
                                                              balance. If no response is received from the customer, the account is canceled. The Postal Service then closes the account,
                                                              transfers the balance to revenue, and the account is classified as dormant. Customers retain visibility to dormant account
                                                              information within PostalOne! through the Business Customer Gateway for 1 year after the month of cancellation. When a
                                                              customer requests a refund from a dormant account within the 1 year period, it is processed through PostalOne!. After the 1 year
                                                              timeframe, account information is deleted from PostalOne! and archived. Customers may continue to claim refunds at any time
                                                              after accounts are canceled. The Postal Service refunded $34.3 million to customers from October 1, 2008, through
                                                              June 30, 2014. Based on this data, we projected the Postal Service will issue an average of $3,364,465 annually in refunds from
                                                              dormant accounts for the period of July 1, 2014, through June 30, 2016.

                                                              Objective, Scope, and Methodology
Findings




                                                              Our objective was to determine whether the Postal Service’s procedures for refunding dormant advance deposit permit accounts
                                                              to customers were effective and consistent with best practices. To accomplish our objective, we:

                                                              ■■ Researched laws and regulations of the Postal Service and compared them to federal and state agencies’ laws and regulations
                                                                 to identify best practices for unclaimed funds.

                                                              ■■ Reviewed Postal Service policy for retaining records of dormant advance deposit permit accounts to determine
                                                                 retention period.
Recommendation




                                                              ■■ Reviewed Postal Service procedures to understand closing and refunding of dormant advance deposit permit accounts.

                                                              ■■ Interviewed Postal Service personnel to obtain details of the dormant advance deposit permit accounts and feedback on the
                                                                 refund process.

                                                              ■■ Evaluated the visibility of dormant advance deposit permit accounts and customer satisfaction survey for customer’s concerns
                                                                 of the refund process.

                                                              ■■ Evaluated how Postal Service accepts and processes refund requests of dormant advance deposit permit accounts for
                                                                 payment to gain knowledge of the refund process.
Appendices




                    Dormant Advance Deposit Permit Accounts
                    Report Number FT-MA-15-001
                                                                                                                                                        Print                                 11
Highlights                                                    ■■ Conducted site visits at four judgmentally selected postal units13 to understand the dormant advance deposit permit account
                                                                 refund process and to trace dormant account information to the source documents.

                                                              ■■ Analyzed PostalOne! system data to identify dormant advance deposit permit accounts transferred to revenue during
                                                                 FYs 2012 and 2013.

                                                              ■■ Obtained general ledger data to identify dormant advance deposit permit account refunds from October 1, 2008, through
                                                                 June 30, 2014.
Table of Contents




                                                              We conducted this review from March through October 2014 in accordance with the Council of the Inspector General on
                                                              Integrity and Efficiency, Quality Standards for Inspection and Evaluation. We discussed our observations and conclusions with
                                                              management on September 5, 2014, and included their comments where appropriate.

                                                              We assessed the reliability of PostalOne! data by tracing it to source documents and the general ledger. We determined that the
                                                              data was sufficiently reliable for the purposes of this report.

                                                              Prior Audit Coverage
                                                              The U.S. Postal Service Office of Inspector General did not identify any prior audits or reviews related to the objective of this audit.
Findings
Recommendation
Appendices




                                                              13	 We judgmentally selected the BMEU and PRU, Eagan, MN; and BMEU and PRU located within the St. Louis, MO, Main Post Office.
                    Dormant Advance Deposit Permit Accounts
                    Report Number FT-MA-15-001
                                                                                                                                                                            Print                  12
Highlights          Appendix B:
                    Management’s Comments
Table of Contents
Findings
Recommendation
Appendices




                    Dormant Advance Deposit Permit Accounts
                    Report Number FT-MA-15-001
                                                              Print   13
Highlights
Table of Contents
Findings
Recommendation
Appendices




                    Dormant Advance Deposit Permit Accounts
                    Report Number FT-MA-15-001
                                                              Print   14
Highlights
Table of Contents
Findings




                                                                 Contact us via our Hotline and FOIA forms, follow us on social
                                                              networks, or call our Hotline at 1-888-877-7644 to report fraud, waste
                                                                                     or abuse. Stay informed.

                                                                                    1735 North Lynn Street
Recommendation




                                                                                   Arlington, VA 22209-2020
                                                                                         (703) 248-2100
Appendices




                    Dormant Advance Deposit Permit Accounts
                    Report Number FT-MA-15-001
                                                                                                                                       Print   15
